HHS/OIG-Audit--"Review of Maine Bureau of Medical Services' Medicaid Reimbursement for Durable Medical Equipment for Recipients Residing in Nursing Facilities, (A-01-00-00001)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Maine Bureau of Medical Services' Medicaid Reimbursement for Durable Medical Equipment for Recipients
Residing in Nursing Facilities," (A-01-00-00001)
November 21, 2000
Complete
Text of Report is available in PDF format (2.6 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of the Maine Bureau of Medical Services' (State Agency's) Medicaid reimbursement
for durable medical equipment (DME) purchases and rentals associated with recipients who were also residing in nursing
facilities (NFs). The objective of this review was to determine the adequacy of the State Agency procedures and controls
over Medicaid payments made to outside providers for DME when recipients were also receiving skilled nursing care during
their stays in a nursing facility. Our review disclosed that the State Agency has established policies that do not allow
for Medicaid reimbursement of many DME services to outside providers while a recipient is a resident in a nursing facility.
Based on results of a computer match and related payment testing, we found that, with few exceptions, the State Agency
was adhering to its reimbursement policies and that DME was not being inappropriately charged to the Medicaid program.
As a result, we have no further recommendations to make on this issue.